<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    [Clerk's note.--The subcommittee was unable to hold 
hearings on departmental and nondepartmental witnesses. The 
statements and letters of those submitting written testimony 
are as follows:]

                         DEPARTMENTAL WITNESSES

         Prepared Statement of the Open World Leadership Center
    Chairman Daines, Ranking Member Murphy, and Members of the 
subcommittee, thank you for the opportunity to present written 
testimony on the Open World Leadership Center, one of the most 
effective American exchange programs for countries in transition.
    A Resource: The Open World program stands as a unique resource for 
Congress. By linking rising leaders and key decision makers from 
Eurasia to Members of Congress, our delegates can convey both facts and 
context that help inform Members. For example, in 2017, Ukrainian 
parliamentarians, representing four parties and all united as ``Euro-
optimists,'' painted the current political atmosphere for the 16 
Members they met. Topics discussed touched on the challenges of 
fighting corruption, consequences of the war in Eastern Ukraine, the 
need for United States leadership to unify European and U.S. policy, 
and the information war with Russia. Multiply that series of 
conversations by the over 800 delegates that have met with Members, 
staff and your constituents, you can see that the Open World program 
provides unfiltered insights from rising leaders who are fully engaged 
in the political, economic, educational and other facets of their 
country's development. Over 80 percent of our participants have met 
with Members or staff.
    An Asset: While you might not at first think about the asset side 
of the balance sheet, we have 27,000 alumni in strategically important 
countries. Ambassador John Tefft, who recently finished his time as our 
Ambassador to the Russian Federation, noted that in his travels 
throughout this vast territory, it is Open World alumni that are more 
open to meeting with and talking to him. In a country of managed news, 
our nearly 20,000 alumni in all 83 regions of the Russian Federation 
carry a far different and more positive view of the United States 
despite the Russian media's efforts to demonize us. And they have 
friends and a wide reach through social networks. Finally, the Open 
World program directly benefits your constituents. In 2017, the program 
placed delegations of young professionals in 47 States and 205 
Congressional districts.
    An Investment: As an investment, we are hard to beat. Our overhead 
runs consistently at or below 7 percent; our cost per participant is 
less than half that of similar Executive Branch programs; and our 
responsiveness to congressional initiatives is quick and effective. For 
example, one Member believed we needed to focus more on legislators. 
Our Board agreed and the next year, we set an objective of 20 percent 
of participants coming from legislative bodies. We met that goal by 
bringing over 100 legislators and staff by the end of the year.
    Why Legislative Branch: Our placement in the Legislative Branch 
allows us to engage people of influence from more closed countries who 
would otherwise avoid an Executive Branch program. A question that I 
hear every so often is, ``Why is the Open World Leadership Center in 
the Legislative Branch?'' The most compelling answer is simply that the 
placement in the Legislative Branch allows our program to engage 
influential, democracy-minded Russians and others from more closed 
countries--products of the Putin Generation looking for positive 
change--that would otherwise choose not to travel on an Executive 
Branch exchange. What better way to support Congress than by working in 
countries that do not have a tradition of open debate or legitimate 
opportunities to propose alternatives for government to take, than by 
making the citizenry more knowledgeable about the legislative process 
that will empower them to be a force for change?
    In April of 2017 Open World hosted five in-demand Middle East 
specialists from Russia. They were blunt in telling us that they felt 
secure on our program, in large part due to its Legislative Branch 
identity. One expert wrote on Facebook that publishing his article was 
a ``result of the recent trip to DC and a milestone in my career.'' 
During the Open World program in Washington, DC, this delegate visited 
numerous high level think tanks and policy makers. In a joint statement 
the six delegates had this to say about their Open World program: 
``Open World appealed to the members of our delegation by being 
nonpartisan, politically neutral, and outside of Executive Branch 
politics. The program fosters a free, open, deep and meaningful 
exchange of ideas between peers.''
    Equally important, our Board, the majority made up of Members of 
Congress, provides direction and calls on us for full accountability. 
That solid guidance allows us to be creative, cost conscious, and able 
to explore themes that more staid, convention-bound programs shy away 
from.
    The Geo-Political Challenge: The Open World program focuses on 
assisting Congress in its oversight responsibilities and on conducting 
exchanges that establish lasting professional relationships between the 
up-and-coming leaders of Open World countries and Americans dedicated 
to showcasing U.S. values and democratic institutions. The Open World 
program brings emerging national and regional leaders to the United 
States to meet their American counterparts and gain firsthand knowledge 
of how American civil society works. This hands-on and close up look at 
our processes--and the people who run them--has a unique impact on our 
delegates. The Open World experience provides the impetus for 
improvement; delegates return home and set to work creating change 
based on the models they have seen.
    The Power of Exchange: The elected officials and young 
professionals from across the former Soviet states and other countries 
who, thanks to Congress, come on the Open World program each year have 
seen the best of America up close and personal. They go back to their 
homes with an improved impression of our country and they share that 
positive impression with their friends, family, community, and 
professional counterparts. These are the people that go into elected 
office, run cities, teach the next generation, and craft the foreign 
policy that directly affects the United States. Like a tide, their 
influence is steady, persistent, and mostly unstoppable.
    Front Line against Fake News and Anti-American Propaganda: The Open 
World program is a proven effective method of directly combatting anti-
American disinformation and propaganda being disseminated out of Moscow 
into its neighboring states as well as into other countries via 
sophisticated and well-funded communications methods such as the RT 
television channel. In the 4 years since Ukraine's Maidan Revolution 
and the subsequent illegal annexation of Crimea by the Russian 
Federation, the world has seen undisputed evidence that Russian troll 
farms are blanketing airwaves and the Internet with stories designed to 
disrupt the news cycle. Through our Embassy in Kyiv and other sources 
we find European-minded, anti-corruption activists and young Members of 
Parliament that see a great opportunity in participating in the Open 
World program.
    Similar Russian tendencies are at play in Georgia and Moldova, both 
European Union-oriented governments and with regions mired in frozen 
conflicts with Russia. Open World directly engages Members of 
Parliament from both countries as well as their leading NGO and social 
services influencers.
    Keeping Russia Close: U.S.-Russia relations continue to be 
strained. In fact, it is reminiscent of a time 18 years ago when our 
founder Librarian of Congress Emeritus Dr. James H. Billington grew 
increasingly concerned about our two country's relations during the 
NATO action in Serbia and Kosovo. He envisioned a mini-Marshall Plan to 
keep goodwill strong at the grassroots level, when our diplomatic 
efforts were at a stalemate. Dr. Billington took his concerns not to 
the State Department, not to private international funders, but to 
Congress, to the Appropriations Committee, in fact, because it was his 
vision that a new model of exchange program would support the 
international oversight activities of U.S. legislators. The Committee 
and Congress agreed with Dr. Billington, in effect creating a new 
support agency for the Congress. In 1999, the nascent Open World 
program brought over 2,000 Russians to the United States for 
professional programming hosted by their American counterparts, 
including Members of Congress, all across the country.
    Today, the Open World Leadership Center continues to conduct a 
highly-regarded international exchange program in the United States 
Legislative Branch and plays an increasingly vital role in the 
political landscapes of many countries throughout Eurasia, and in 
particular, Russia and Ukraine. Open World has supported leaders who, 
early in their careers, have become influential within their 
communities and in the national arena. For example, Alexei Navalny, 
Russia's most well-known Kremlin critic was an unknown 29-year-old 
lawyer when he came on the Open World program in 2005. Mr. Navalny was 
hosted in Dallas, Texas on the Local Governance theme and went on to 
create a strong and active movement against abuse of power and 
corruption. Mr. Navalny is only one example demonstrating Open World's 
expertise in selecting the most promising individuals to come on the 
program usually right at the moment that they are about to ascend in 
their profession. We communicate with these alumni, track their 
results, and present them to Congress to show how effective our 
exchange model is.
    One profound insight our delegates derive from their experience in 
the U.S. is that elected officials truly are accessible and accountable 
to the citizens of their jurisdictions. Another powerful element, again 
consistently praised by our delegates, is the impact of home stays--
delegates living with American families while in the United States. One 
delegate succinctly described ``seeing an America I didn't know 
existed.''
    Congressional leadership helps advance democracy and U.S. values 
worldwide. With Congress's support, Open World is a strategic long-term 
investment in our security and a crucial source of our international 
influence and strength. Open World is committed to these efforts while 
recognizing the possibility of uncertainty and setbacks, understanding 
that progress requires our persistent dedication to our enduring 
principles and goals.
    Open World's Powerful Alumni Network: Open World maintains a vast 
alumni network across Russia, Ukraine, and the other countries of the 
former Soviet Union. Many members of the 27,000-strong alumni community 
are active in their communities, regions, and often at the center of 
government. They are a valuable resource to our diplomatic missions 
abroad. The positive communications' multiplier effect is a major 
result of the Open World program. Our alumni dispel myths and untruths 
about the United States and help promote an effective message about 
America.
    For Open World's Russia program, the objective is to have 
participants return to Russia with a more positive view of America; to 
add to their professional skills through direct contact with U.S. 
citizens engaged in similar work; and to counter the Russian 
information war by providing a direct view of the American people and 
our society. These programs are intense ten-day thematic visits to the 
U.S. that expose young and emerging Russian leaders to democratic 
practices, civil rights, good governance, transparency in media, sound 
health and education policy and practices, the provision of social 
services, and economic development strategies.
    Open World has had enormous success in Russia due to a continuous 
low-key presence there since 1999, providing our colleagues from Russia 
with broad exposure to American democratic and free-market 
institutions.
    Open World's Ukraine program helps Ukraine mature in the aftermath 
of revolution and enhance its leaders' skills and capabilities to 
advance the country's agenda. These programs come at a time when part 
of Ukraine has been annexed and as it faces Russian interference in the 
East and South.
    The Open World program also focuses on the institutional 
development of civil society and promotion of economic reform. The 
subthemes of the program aim at fighting corruption, promoting 
transparency and accountability in governance, furthering 
decentralization of power, and improving the business climate to grow 
the economy and enhance trade capacity, particularly as it relates to 
the agricultural and energy sectors.
    Our more than 3,200 outstanding alumni now serve in leadership 
positions throughout the country. In 2017, Open World's 239 Ukrainians 
were hosted in 40 U.S. communities in 30 States, providing them with 
broad exposure to American democratic and free-market institutions. As 
part of these 40 programs, 10 aimed to not only assist Ukraine during 
these trying times, but also to further existing partnerships to 
support long-term sustainability. Open World's 2017 programming 
included Ukrainians from all of Ukraine's current 25 regions (not 
counting the two regions in Crimea). Open World alumni work on legal 
reform, media fact checking, supporting victims of war, and furthering 
reforms in education and health.
    To exemplify some programmatic results: Open World is supporting 
our parliamentary alumni and others in the legal field to move actual 
judicial reform forward. Through the International Judicial Relations 
Committee of the Judicial Conference of the United States (whose Head 
is chosen by the Chief Justice of the Supreme Court), we create intense 
U.S. programs for Ukrainian professionals that draws a practical path 
toward judicial reform.
    Two members of the new Cabinet of Ministers are Open World alumni. 
Open World alumni are in top leadership positions in the Ministry of 
Health, the Ministry of Education and Science, and the Ministry of 
Youth and Sports. The Prime Minister is a strong supporter of the 
project and has been a very active supporter of the Birmingham 
(Alabama)-Vinnitsa partnership program that Open World implements.
    Open World alumni are among the leadership in Ukraine's Parliament 
and many others serve as key staff members. These dedicated alumni are 
eager to work with Open World to expand partnership with Members of 
Congress and State legislators.
    In summary, your investment in Open World brings returns every 
single day, from delegations talking with you and being hosted by 
families in your districts, to alumni helping our embassies abroad work 
effectively.

    [This statement was submitted by Ms. Jane Sargus, Executive 
Director.]
                               __________

                       NONDEPARTMENTAL WITNESSES

    Prepared Statement of the American Association of Law Libraries
Dear Chairman Daines, Ranking Member Murphy, and Members of the 
subcommittee:

    Thank you for the opportunity to submit written testimony in 
support of the fiscal year 2019 requests of the Government Publishing 
Office (GPO) and the Library of Congress.
    The American Association of Law Libraries (AALL) is the only 
national association dedicated to the legal information profession and 
its professionals. Founded in 1906 on the belief that people-lawyers, 
judges, students, and the public-need timely access to relevant legal 
information to make sound legal arguments and wise legal decisions, its 
nearly 4,500 members are problem solvers of the highest order. AALL 
fosters the profession by offering its members knowledge, leadership, 
and community that make the whole legal system stronger.
    Equitable and permanent public access to government and legal 
information is one of AALL's policy priorities. We are grateful to the 
subcommittee for ensuring that non-confidential Congressional Research 
Service (CRS) reports will soon be available online to the public 
through a website maintained by the Library of Congress, as directed in 
the fiscal year 2018 omnibus appropriations act (Public Law No: 115-
141).
    GPO and the Library of Congress have vital missions and critical 
responsibilities in providing access to and preserving unique 
materials. Both agencies have made great strides in recent years to 
contain costs and do more with less. We ask the subcommittee to provide 
adequate funding to these agencies so that they may continue to meet 
their responsibilities to Congress and the public by investing in 
programs and technologies that increase permanent public access to 
information.
              funding for the government publishing office
    GPO produces, authenticates, disseminates, and preserves government 
information in multiple formats from all three branches of government. 
These are complex and demanding responsibilities that are essential to 
the information lifecycle and promote government transparency. We urge 
the subcommittee to fully fund each account within GPO's request.
    Particularly important to AALL is funding for the Public 
Information Programs account, which supports the Federal Depository 
Library Program (FDLP). We urge the subcommittee to approve the 
requested $32 million. Under current funding, this appropriation has 
declined by nearly 30 percent since fiscal year 2010. The requested 
funding level will allow GPO to increase the number of full-time 
equivalents (FTEs) by eleven to provide additional support for locating 
and processing Federal information for inclusion in the FDLP and the 
Cataloging and Indexing Program.
    GPO administers the FDLP by providing Federal Government 
information products in multiple formats to more than 1,100 
participating libraries across the country, including 12 Federal 
Depository Libraries in Montana and 18 Federal Depository Libraries in 
Connecticut. These libraries are charged with ensuring no-fee access to 
government information to the American public.
    Approximately 200 law libraries participate in the FDLP, including 
academic, State, court, county, and government law libraries. Law 
libraries rely on GPO for distribution of specific tangible materials, 
especially core legal titles in print, as well as access to official, 
authentic material online through GPO's govinfo.
    On March 15, the bipartisan FDLP Modernization Act of 2018, H.R. 
5305, was introduced in the House with the support of AALL, the 
American Library Association, and the Association of Research 
Libraries. The bill will update the FDLP for the digital age, 
strengthen the Superintendent of Documents' responsibilities to 
authenticate and preserve government information, and improve oversight 
and increase transparency by adding reporting requirements. It will 
strengthen GPO's administration of the program while ensuring continued 
participation by many types of libraries across the country. The bill 
was reported favorably by the Committee on House Administration on 
April 12, and we are hopeful the bill will soon pass the House and then 
be considered by the Senate.
    In testimony before the House Committee on House Administration in 
July 2017, then-Director of GPO Davita Vance-Cooks suggested that 
Congress explore grant-making authority for GPO. Though grant-making 
authority was not included in H.R. 5305 as introduced, we believe it is 
worthy of further exploration. We recommend that the subcommittee 
direct GPO to continue to study the creation of a grant-making program 
to support the services of Federal Depository Libraries in providing 
permanent public access to Federal information. GPO should coordinate 
with the Institute of Museum and Library Services and consult with 
stakeholders about how such a program might be administered.
    Finally, we are pleased with the work that GPO has done to make 
official, authentic information available through govinfo. Our members 
use govinfo every day to access and share trustworthy legal and 
government information.
                  funding for the library of congress
    As the largest library in the world, the Library of Congress 
provides leadership on many critical issues, including digitization and 
preservation, access to legal and scholarly information, and copyright. 
We are pleased that approved funding for fiscal year 2018 will support 
technology modernization for the Library, the Copyright Office, and the 
CRS.
    The Library's fiscal year 2019 request includes $1.8 million to 
strengthen the capacity of the Law Library of Congress. The Law Library 
is a world leader in providing access to reliable legal materials in 
print and electronic formats and it must have adequate funding to meet 
the needs of Congress, the Supreme Court and other court judges, 
attorneys, and the public. In addition, the Law Librarian must be able 
to function with some autonomy within the Library of Congress, as she 
is the leader of the de facto national law library.
    It is critical that the Law Library be adequately staffed with 
experts who have the appropriate foreign legal and language knowledge 
to answer complex legal questions and to meet increasing demand for 
foreign language and foreign law initiatives, including the maintenance 
and preservation of materials. The Law Library has lost legal 
specialists in recent years through attrition and retirement. We urge 
the Subcommittee to support the Library's request for an additional 
seven FTEs.
    We strongly support the Law Library's digitization strategy, which 
will provide access to public domain U.S. legal and legislative 
materials and unique foreign law materials not subject to copyright 
restrictions and not otherwise available free of charge. By digitizing 
the U.S. Serial Set and the Supreme Court Records and Briefs, the Law 
Library will provide comprehensive, ready access to a treasure trove of 
documents that are currently available only in print, through 
commercial publishers, or in bits and pieces online (for example, 
through the Library of Congress American Memory Project, which provides 
non-searchable access to selected 19th century and early 20th century 
documents and reports from the U.S. Serial Set). We support the Law 
Library's request for three FTEs to support its digitization strategy.
                               conclusion
    AALL thanks the subcommittee for the opportunity to provide written 
testimony in support of the fiscal year 2019 requests of the Government 
Publishing Office and the Library of Congress. The work of GPO and the 
Library of Congress support law libraries, the public, and our 
democracy. We urge you to approve as close to full funding as possible 
for these agencies.
    If we can provide additional information or assistance, please 
contact AALL's Director of Government Relations Emily Feltren at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593c3f3c352d2b3c37193838353577362b3e">[email&#160;protected]</a> or 312.205.8010.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Greg Lambert
President
                                 ______
                                 
         Prepared Statement of the American Library Association
    On behalf of the American Library Association, thank you for the 
opportunity to submit this testimony regarding Legislative Branch 
Appropriations for fiscal year 2019. We write in support of the budget 
requests of the Library of Congress and the Government Publishing 
Office, which provide valuable national services that benefit libraries 
and the public nationwide.
                          library of congress
    The Library of Congress provides an array of services to Congress, 
libraries, and the American public. The Library of Congress is the 
largest library in the world, with millions of items in its 
collections. Through its ongoing work to acquire, organize, provide 
access to, and preserve these collections, the Library of Congress 
supports research, learning, and innovation nationwide.
    The vital services of the Library of Congress include, for 
instance, the National Library Service for the Blind and Physically 
Handicapped, a free national library program that provides braille and 
recorded materials to people who cannot see regular print or handle 
print materials. This national program includes a network of regional 
libraries, such as the Montana Talking Book Library and the Connecticut 
Library for the Blind and Physically Handicapped, which provide 
services to users in those communities.
    We also note our support for the ongoing modernization efforts at 
the Copyright Office, which has been working collaboratively with the 
Library of Congress's Office of the Chief Information Officer. While 
currently, most Copyright Office records are in paper formats, the 
office intends to make copyright records available online, which will 
make it easier for libraries to help users ascertain the rightsholder 
status of works.
    In addition, we are grateful that the fiscal year 2018 
appropriations law will require public access to nonconfidential 
reports by the Congressional Research Service, which for the first time 
will allow libraries nationwide to provide authentic copies of these 
useful reports to the public.
                      government publishing office
    The Government Publishing Office (GPO) also provides important 
services to the public and America's libraries. GPO's online repository 
of government information and the public information programs of GPO's 
Superintendent of Documents provide essential information to America's 
businesses, legal system, researchers, and the general public.
    These programs include the Federal Depository Library Program 
(FDLP), a collaboration between the Federal Government and more than 
1,100 participating libraries. These libraries, such as the Montana 
State University Library in Bozeman, Montana, and the Silas Bronson 
Library in Waterbury, Connecticut, help the public access Federal 
information.
    While libraries value the FDLP, participating libraries incur 
significant unfunded costs in order to provide services to the public. 
We encourage the subcommittee to request that GPO study the creation of 
a grant-making program to support Federal Depository Libraries in 
providing permanent public access to Federal information.\1\
---------------------------------------------------------------------------
    \1\ For additional information about this suggestion, please refer 
to the enclosed letter from the American Library Association, 
Association of Research Libraries, American Association of Law 
Libraries, and Chief Officers of State Library Agencies, dated April 6, 
2018.
---------------------------------------------------------------------------
                               conclusion
    Thank you for the opportunity to testify before the subcommittee in 
support of the fiscal year 2019 requests of the Library of Congress and 
the Government Publishing Office. We ask for the subcommittee's support 
in meeting the requests for these important national programs that 
serve Congress, libraries, and the American public.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Kathi Kromer
Associate Executive Director, Washington Office

Established in 1876, the American Library Association is a non-profit 
501(c)(3) organization created to provide leadership in the 
transformation and the development, promotion, and improvement of 
library and information services as well as the profession of 
librarianship in order to enhance learning and ensure access to 
information for all.

----------

                               ENCLOSURE

April 6, 2018

 
 
 
The Honorable Kevin Yoder                   The Honorable James Lankford
Subcommittee on Legislative Branch          Subcommittee on Legislative
  Appropriations                             Branch
U.S. House of Representatives                 Appropriations
                                            U.S. Senate
 


Dear Chairman Yoder and Chairman Lankford:

    On behalf of the American Library Association, the Association of 
Research Libraries, the American Association of Law Libraries, and the 
Chief Officers of State Library Agencies, we write to ask for your 
continued support for the Federal Depository Library Program (FDLP) and 
other Public Information Programs of the Superintendent of Documents 
within the Government Publishing Office (GPO). In particular, we ask 
for your support for a study by GPO of grant-making to Federal 
Depository Libraries.
    The FDLP is a decades-long collaboration between libraries and the 
Federal Government to ensure that members of the public have effective 
and long-term access to government information. Although libraries 
value the FDLP, participating libraries incur significant unfunded 
costs in order to provide services to the public under the program. 
These unfunded costs have led to a net decline in the number of Federal 
Depository Libraries of 18 percent since 1988, reducing the public's 
access to this vital program.
    In recognition of this challenge, in testimony before the Committee 
on House Administration in July 2017, then-Director of GPO Davita 
Vance-Cooks suggested that Congress consider giving GPO the authority 
to make grants to Federal Depository Libraries. We believe this idea is 
worthy of further exploration. Therefore, we ask the subcommittee to 
request that GPO study the creation of a grant-making program to 
support the services of Federal Depository Libraries in providing 
permanent public access to Federal information. In doing so, we also 
urge the subcommittee to encourage GPO to coordinate with the Institute 
of Museum and Library Services and to consult with stakeholders, 
including the Depository Library Council and library associations, 
about how such a program might be administered.
    Our associations appreciate the subcommittee's support of the FDLP. 
We look forward to continuing to work with the subcommittee to ensure 
this program carries out its important mission of providing the 
American public with transparency and access to government information. 
Thank you for your consideration.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
Gavin R. Baker, Assistant Director of       Prudence S. Adler, Associate
 Government Relations                        Executive Director
American Library Association                Association of Research
                                             Libraries
 

                                             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                             

 
 
 
Emily Feltren, Director of Government       Timothy Cherubini, Executive
 Relations                                   Director
American Association of Law Libraries       Chief Officers of State
                                             Library
                                              Agencies
 


cc:  The Honorable Tim Ryan, Ranking Member, House Subcommittee on 
Legislative Branch Appropriations
  The Honorable Chris Murphy, Ranking Member, Senate Subcommittee on 
Legislative Branch Appropriations
                                 ______
                                 
        Prepared Statement of the Center for Responsive Politics
    Mr. Chairman and Members of the committee, thank you for allowing 
the Center for Responsive Politics to submit this written testimony to 
the U.S. Senate Committee on Appropriations Subcommittee on the 
Legislative Branch, regarding our recommendation for improving public 
information on lobbying.
    My name is Sheila Krumholz. I am executive director of the Center 
for Responsive Politics, a nonpartisan, nonprofit research organization 
founded 35 years ago by two former Senators, Democrat Frank Church and 
Republican Hugh Scott. CRP monitors and analyzes Federal campaign 
contributions and expenditures, and other forms of money and influence 
in U.S. politics and policy. My testimony focuses on lobbying data, 
which we also gather and present on our website, OpenSecrets.org.
    The offices of the Clerk of the House and the Secretary of the 
Senate serve as the repositories for more than 20 years of data 
detailing the lobbying activities of thousands of organizations 
required to file under rules set forth by the Lobbying Disclosure Act 
of 1995 (LDA) and the Honest Leadership & Open Government Act of 2007 
(HLOGA). These reports serve as the basis for important public 
resources that facilitate investigations by academics, journalists and 
Congress itself that contribute to the integrity of policy making 
processes.
    Annually, these reports list more than 11,000 individual lobbyists 
as having undertaken significant ``lobbying activities.'' \1\ The 
Center for Responsive Politics (CRP) and others rely on this data both 
to populate the OpenSecrets.org website, which is free and open to the 
public, as well as to provide additional research assistance for 
journalists, nonprofits, academic institutions and interested citizens. 
Our core mission is to inform and engage citizens, more than 600,000 of 
whom visited our site seeking reliable information on money in politics 
last month. In the prior month, OpenSecrets.org had more than one 
million visitors--so the public interest in this kind of information is 
substantial and that's especially true of information about lobbying.
---------------------------------------------------------------------------
    \1\ Lobbying Disclosure Act Guidance, Revised January 31, 2017; 
https://lobbying
disclosure.house.gov/amended_lda_guide.html#section4.
---------------------------------------------------------------------------
    Unfortunately, the quality of information on Federal lobbying 
provided by the Senate Office of Public Records (SOPR) is undermined by 
the lack of two key ingredients: (1) an identifier that makes clear 
that names reported as ``Jane Davis,'' ``Jane A. Davis,'' and ``Jane 
Ann Davis'' all refer to the same individual lobbyist and (2) a data 
structure that includes reported information about the issues on which 
those lobbyists worked and the agencies lobbied by each.
    Our research finds that over the last 20 years, on average, 12 
percent of names reported annually are extraneous variations due to 
typographical errors, nicknames, and name changes. Recent years have 
been consistently in the 8 percent range. CRP researchers invest a lot 
of work to normalize lobbyist names to improve data accuracy and to 
facilitate tracking their employment history and political campaign 
contributions. We reconcile the different versions as well as verify 
that individuals with similar or common names are in fact, different 
people. Changes to a lobbyist's legal name based on changed marital 
status are common and present further challenges as there is often not 
an easily accessible way to confirm that ``Jane Doe'' and ``Jane Buck'' 
are, in fact, the same person.
    Considerable effort goes toward creating and maintaining a version 
of lobbyist IDs through algorithmic matching as well as human review. 
Following each quarterly filing deadline, we spend a full day 
reconciling name variations and changes in associated registrants, 
delaying the release of an improved data set--all of which would be 
unnecessary if information already collected were converted into a 
publicly accessible identifier.
    Based on official filing manuals,\2\ the Clerk of the House and 
Secretary of the Senate assign a unique identifier to each lobbyist 
during the filing process that is used internally to track each person 
across time. However, the downloadable data released to the public does 
not include unique IDs.
---------------------------------------------------------------------------
    \2\ ``Employed lobbyists are assigned a unique ID when they are 
registered with the House and Senate to lobby and added to the 
Contribution Reporting System by the person in your organization who 
manages the registration and reporting filings.''--From the LD-203 
``Help'' manual
for filers: https://lda.congress.gov/LC/help/
default.htm?turl=WordDocuments%2Faccessingthe
system.htm.
---------------------------------------------------------------------------
    The Honest Leadership & Open Government Act's revolving door 
provisions make clear that Congress sees tracking registered lobbyists' 
employment across government and the private sector as essential to 
monitor for conflicts of interest and to protect government integrity. 
The Government Accountability Office (GAO) undertakes an annual review 
of LDA compliance and recently found that 15 percent of filed reports 
fail to fully disclose previous government employment as required.\3\ 
The ability to easily and accurately identify individuals through their 
lobbying careers is critical to research and oversight by the press and 
civil society to fill that gap. Furthermore, the lobbyists themselves 
want the information about their activities to be accurate, based on 
the calls we receive from them whenever they are misidentified.
---------------------------------------------------------------------------
    \3\ ``GAO 2017 Lobbying Disclosure: Observations on Lobbyists' 
Compliance with Disclosure Requirements,'' March 2018: https://
www.gao.gov/assets/700/690988.pdf.
---------------------------------------------------------------------------
    In addition to the lack of lobbyist identifiers, downloadable data 
provided by the SOPR removes the link between individual lobbyists and 
the agencies they contacted, and the link between lobbyists and the 
issues on which they lobbied, as per the quarterly LD-2 reports.
    Lobbying reports are divided into sections describing activity 
within one of 79 predetermined general issue areas, with most reports 
listing multiple issue areas. Each issue area lists the agencies 
contacted and individual lobbyists who worked on that topic. Data 
provided by SOPR, however, lists all lobbyists and agencies from the 
entire report, regardless of issue area, removing the connections to 
the issues they worked on. This makes it impossible to say that, for 
example, John Smith lobbied on Medicare issues but not Defense issues 
and can even create the mistaken impression that he may have worked on 
both or on Defense but not Medicare. In terms of using the data to 
understand larger trends, it also prevents users of the SOPR website 
and data, including our own website, OpenSecrets.org, from being able 
to determine which issues are being worked on by the most registered 
lobbyists.
    The current system for filers to submit reports does make these 
links and distinctions possible. The Clerk of the House's publicly 
available data includes these vital links. In fact, while CRP continues 
to primarily rely on the Senate's data, we augment it with the House 
data for this reason.
    We are not requesting changes to the forms that lobbyists use to 
submit their reports. All lobbyists use a unique ID to sign into the 
online system to submit their reports. It is available only to them and 
internally at the offices of the Clerk of the House and Secretary of 
the Senate. We believe it is possible to generate from those private 
IDs a public-facing unique ID that can be released in the XML data 
files. Likewise, the relationship between individual lobbyists, the 
agencies they contacted and the issues that were discussed exists in 
report images \4\ and is preserved in the House version of the data so 
no changes to the filing process are necessary. Changes to the 
structure of the public data are all that are needed to add this 
important value.
---------------------------------------------------------------------------
    \4\ See questions 15 through 19 of Facebook's first quarter 2018 
filing as provided by the SOPR; https://soprweb.senate.gov/
index.cfm?event=getFilingDetails&filingID=5B785E8B-B0B2-489E-9D7B-
BB25F40C3CA5&filingTypeID=51.
---------------------------------------------------------------------------
    If updates to SOPR's data structure to add such identifiers and 
provide connections between lobbyists and issues are not possible at 
this time, we request that a study is undertaken to determine the 
feasibility of doing so in the future.
    Thank you for the opportunity to provide our testimony.
                                 ______
                                 
       Prepared Statement of the Congressional Data Coalition and
                           Civic Impulse LLC
    Chairman Daines, Ranking Member Murphy, and Members of the Senate 
Committee on Appropriations Subcommittee on the Legislative Branch, 
thank you for the opportunity to submit testimony.
    At Civic Impulse LLC, our mission is to help the general public 
learn about and participate in their government. In the last year, 9 
million Americans visited our free website www.GovTrack.us to research 
and track legislation in the U.S. Congress--including journalists, 
legislative affairs professionals, legislative staff on the Hill, 
advocates, students, educators, and of course members of the general 
public. Civil Impulse LLC is a proud member of the Congressional Data 
Coalition, which is a coalition of citizens, public interest groups, 
trade associations, and businesses that champion greater governmental 
transparency through improved public access to and long-term 
preservation of congressional information, and I am authorized to speak 
on their behalf.
    Americans care about what is happening in the legislative branch, 
and Congress's efforts to publish its proceedings accurately, 
comprehensively, and comprehensibly is an indispensable function of our 
government in this era when information travels fast.
    In recent years, this subcommittee has favorably reported 
appropriations legislation that, once enacted, has dramatically 
improved access to information about the work of the Senate, most 
recently public access to Congressional Research Service reports. Thank 
you for these efforts. We rely on many of these resources the 
subcommittee has supported--and your support for these efforts have had 
a tangible impact on improving civics education and understanding of 
and engagement with Congress.
    Three incremental steps would continue the forward momentum of 
releasing important Congressional information in ways that serve the 
needs of the institution and the public. They are publishing a 
committee calendar on Congress.gov, publishing the ``bioguide'' website 
as data, and creating a public information advisory committee to the 
Library of Congress.
                   committee calendar on congress.gov
    Congress.gov, a website jointly administered by the Library of 
Congress and the Government Publishing Office and visited by nearly 1 
million people each month, provides a valuable resource to the public 
about legislation considered by each chamber of Congress. However, the 
website does not provide an integrated calendar about hearings and 
markups taking place each week in both chambers, even though that 
information is available as structured data from the House and the 
Senate. We know it is possible to combine this information into a 
unified user-friendly calendar, as we have built a successful prototype 
of such a service on our website, govtrack.us.\1\
---------------------------------------------------------------------------
    \1\ https://www.govtrack.us/congress/committees/calendar.
---------------------------------------------------------------------------
    Providing a central listing on Congress.gov of upcoming committee 
hearings and markups from both chambers for the upcoming weeks would be 
a valuable resource to the general public as well as congressional 
offices that currently pay third parties for a service to provide that 
information. It should include basic information about the meeting, 
including the topic; the witnesses; the date, time, and location of the 
meeting; the committee or subcommittee holding the hearing; a link to 
the committee's website; links to any documents released by the 
committee relevant to the meeting; and a link to where video from the 
proceedings are (or will become) available.
         biographical directory of the united states (bioguide)
    The Biographical Directory of the United States Congress (or 
Bioguide) is an excellent source of information about current and 
former members of Congress. Since 1998, the online version of the 
Bioguide has been maintained by staff in the Office of the Historian of 
the United States Senate and the House Clerk's Office of History and 
Preservation at http://bioguide.congress.gov. And, since at least 2007, 
the underlying data structures for Bioguide data have been provided by 
the House at its XML website.
    At this time, however, the format in which the information is 
published is inferior for reuse of that data. For those who wish to 
programmatically make use of its information, the website's data is 
published only in HTML. Instead, bioguide information should be 
published in a structured data format like XML. This will make it 
easier for everyone to use the information. In addition, to keep the 
public apprised of updates or changes in the bioguide information, a 
change log, which indicates when information has been changed, should 
be maintained as well.
       library of congress public information advisory committee
    The Library of Congress is proud of its reputation and role as the 
largest library in the world. Part of its mission is to share knowledge 
through its online resources. Indeed, the Library plays an important 
role in providing information about Congress to the public, but the 
Library--at least in our experience--is not in regular contact with 
civil society, especially with those with expertise in facilitating 
public access to Congressional information. This is a missed 
opportunity.
    Other legislative and executive branch agencies and entities 
regularly meet with civil society stakeholders to share information and 
provide a foundation for collaboration. For example, the Legislative 
Branch Bulk Data Task Force meets quarterly concerning bulk access to 
congressional data; the Advisory Committee on the Records of Congress 
semi-annually convenes congressional historians; and the Federal 
Depository Library Council is an ongoing point of contact for 
depository libraries. In the executive branch, the FOIA Advisory 
Committee meets monthly as a point of focus for FOIA practitioners and 
agency officials, the Archivist regularly meets regularly with civil 
society, and so on.
    To our knowledge, however, the Library of Congress does not have a 
regular mechanism by which it convenes public and internal 
stakeholders, at least not with respect to sites like Congress.gov. We 
recommend that such an advisory body be established with broad internal 
and external stakeholder representation that would hold regular public 
meetings where a productive interchange can take place.
                           concluding remarks
    We urge the legislative branch to continue striving to cultivate 
its in-house technology talent. The fundamentals are already in place--
the Library of Congress's Congress.gov and GPO's GovInfo.gov websites 
are evidence that in-house talent can produce effective and cost-
effective solutions for Congress's public information needs. Congress 
has been supporting its in-house talent through the Legislative Branch 
Bulk Data Task Force, for instance. The legislative branch's technology 
staff can do so much more to enhance public engagement and civics 
education through the dissemination of Congress's trusted, primary 
source materials. They need your continued support and encouragement.
    I appreciate the opportunity to testify and welcome the opportunity 
to discuss how the work of the Senate on public access to legislative 
information translates into a stronger democracy.

    [This statement was submitted by Joshua Tauberer, President.]
                                 ______
                                 
                Prepared Statement of the Data Coalition
    Chairman Daines, Ranking Member Murphy, and Members of the 
Legislative Branch Subcommittee, thank you for this opportunity to 
provide written testimony on behalf of the Data Coalition. Below I will 
describe how Congress can strengthen its operational capacity and 
effectiveness by funding a DATA Act Information System at the 
Congressional Research Service.
    The Data Coalition was founded in 2012 to advocate on behalf of the 
private sector and public interest for the transformation of government 
information into standardized, open, and machine-readable data. Based 
in Washington D.C., the Data Coalition represents over 45 technology 
and data analytic companies as well as public sector focused consulting 
and accounting firms. We empower these data companies to help make our 
government more transparent and efficient.
    In 2014 Congress unanimously passed the Digital Accountability and 
Transparency Act (DATA Act) (Public Law 113-101) which charged the 
White House Office of Management and Budget (OMB) and the Department of 
the U.S. Treasury (Treasury) with the task of transforming government-
wide spending information into standardized, searchable open data on a 
central website.
    As of this past month, OMB and Treasury have fully transitioned the 
USAspending.gov website to reflect a year of DATA Act reported agency 
spending data for the public and Congress.
               the data act: value, function, and vision
    The DATA Act's unified open data set provides a comprehensive map 
of all of the executive branch's expenditure accounts, their balances, 
and funds available to be spent. Such information had never before been 
publicly-available in an electronic form. The data set also connects 
every account with the contract and grant awards that it funds. Before 
the DATA Act's mandate, this connection between accounting and award 
data did not systematically exist.\1\
---------------------------------------------------------------------------
    \1\ Landefeld, Frank, Jamie Yachera, and Hudson Hollister. The DATA 
Act: Vision & Value. MorganFranklin Consulting. Data Foundation. July 
2016. http://www.datafoundation.org/data-act-vision-and-value-report/. 
See Section III ``How Does the DATA Act Work?''.
---------------------------------------------------------------------------
    In May of 2017, nearly every CFO Act agency began reporting its 
spending to Treasury using this data format (beginning with fiscal year 
2017-Q2). Now, as required by law, agencies are reporting, and Treasury 
is publishing, a unified open data set of executive-branch spending on 
a quarterly basis. By December 2018, the data set should reflect all of 
fiscal year 2018, its first complete fiscal year using a consistent 
data structure.\2\ Over 90 Federal agencies are actively reporting 
across 1,660 Federal accounts.
---------------------------------------------------------------------------
    \2\ By May 2018, USAspending.gov will reflect a full consecutive 
years' worth of Federal spending: the latter three quarters of fiscal 
year 2017 and the first one of fiscal year 2018.
---------------------------------------------------------------------------
    This spending information is centrally defined by Treasury's DATA 
Act Information Model Schema (DAIMS).\3\ The DAIMS is a government-wide 
standardized collection of 400 interconnected data elements together 
representing the relational data structure by which all Federal 
agencies must now map their financial account systems and award 
reporting.
---------------------------------------------------------------------------
    \3\ ``DATA Act Information Model Schema V1.2.'' Federal Spending 
Transparency Collaboration Space. December 22, 2017. https://
fedspendingtransparency.github.io/data-model/.
---------------------------------------------------------------------------
    And this is merely the beginning.\4\ For instance Treasury has 
built a number of visualization tools in their Data Lab to demonstrate 
how the DAIMS enables a browsable government account structure or can 
visually represent how the purpose of spending (Budget Function) 
relates to the actual spending mechanism (Object Class).\5\ 
Furthermore, Treasury's Strategic Plan sets a goal to expand the DAIMS 
to cover other ``administrative data and link more domains . . . to 
support decisionmaking and provide metrics for evaluating program 
performance and outcomes''.\6\ And agencies are also seeing financial 
management benefits of agency-wide financial viewpoints enabled by a 
unified data set.\7\
---------------------------------------------------------------------------
    \4\ Mader, Dave, Tasha Austin, Christina Canavan, Dean Ritz, and 
Matt Rumsey. DATA Act 2022: Changing Technology, Changing Culture. 
Deloitte. Data Foundation. May 2017. http://www.datafoundation.org/
data-act-2022/. See ``Realizing the Vision'' for seven Cultural and 
Technical DATA Act recommendations.
    \5\ Data Coalition. ``Treasury Launches Data Lab on Revamped 
USASpending.gov.'' News release, April 5, 2018. DataCoalition.org. 
https://www.datacoalition.org/press-releases/treasury-launches-data-
lab-on-revamped-usaspending-gov/.
    \6\ Department of the Treasury. Strategic Plan 2018-2022. https://
www.treasury.gov/about/budget-performance/strategic-plan/Documents/
2018-2022_Treasury_Strategic_Plan_web.pdf.
    \7\ Landefeld. Vision & Value. See Section IV ``Who Benefits From 
the DATA Act?'' for a full discussion.
---------------------------------------------------------------------------
    In short, the DATA Act is the start to realizing a full life-cycle 
picture of the U.S. Government's financial information.\8\
---------------------------------------------------------------------------
    \8\ Using the DATA Act to Restore the Power of the Purse, 114th 
Cong. (2016) (testimony of Hudson Hollister, Executive Director, Data 
Coalition). https://oversight.house.gov/wp-content/uploads/2016/12/
2016-12-01-DATA-Hollister-Testimony.pdf.
---------------------------------------------------------------------------
   usaspending.gov and congress: real-time insights, better-informed 
                               decisions
    The real value of the DATA Act as a resource for government-wide 
spending information is in how it can be both publicly accessed via 
USAspending.gov through intuitive visualizations or complete bulk data 
downloads \9\ and automated APIs \10\ for technically advanced users.
---------------------------------------------------------------------------
    \9\ ``How to Access the USAspending.gov Amazon RDS Snapshot.'' 
USAspending.gov Database on AWS. Accessed April 16, 2018. https://
aws.amazon.com/public-datasets/usaspending/.
    \10\ ``The USAspending Application Programming Interface (API).'' 
USAspending.gov. https://api.usaspending.gov/.
---------------------------------------------------------------------------
    For example, the USAspending.gov data provides sufficient 
information, in a readily-available electronic form, for software 
applications to empower the following tasks, instantly:

  --Identify the particular agency accounts funded by a Congressional 
        appropriation, select the contract and grant awards paid out of 
        those accounts, and map the geographic impact of those awards 
        by state, zip-code, and potentially Congressional district;
  --Identify all of the agency expenditure accounts funding a Federal 
        grantmaking program, and assess the impact of future 
        appropriations decisions on that program;
  --Identify and track all of the unobligated balances across 
        government, within a particular agency, or within a particular 
        appropriations subcommittee jurisdiction, and reconcile this 
        with approved spending allocations and supplemental budget 
        requests;
  --Make more informed appropriations decisions by comparing the annual 
        budget request to current fiscal year government-wide agency 
        account balances and spending activity;
  --Tag spending to particular programmatic missions, track these 
        resources over time, and pair with additional data sets to 
        assess programmatic performance;
  --Autonomously monitor the impact of Federal spending activity on a 
        geographic region;
  --Access consistent and accurate data to inform Congressionally 
        commissioned government reform and deficit reduction 
        decisionmaking bodies.

    However, to derive such conclusions requires in-depth analysis and 
parsing of the bulk data and the raw agency data submissions,\11\ where 
the real value and insights exist. This is often beyond the technical 
capabilities and time resources of Congressional staff who more often 
possess deep expertise in specific policy issue areas and disciplines 
like public administration, law, or business.
---------------------------------------------------------------------------
    \11\ ``FilesDirectory Listing for Raw Financial Assistance Files/
Raw Quarterly DATA Act Files.'' USAspending.gov Agency Submission 
Files. Accessed April 16, 2018. http://usaspending-
submissions.s3-website-us-gov-west-1.amazonaws.com/.
---------------------------------------------------------------------------
     recommendation: provision a crs congressional facing data act 
                           information system
    Congress should fund a project at the Congressional Research 
Service to build a Congressional facing DATA Act Information System. 
Such a platform would pull USAspending.gov's bulk data and make it 
readily accessible for the unique budget, appropriations, and oversight 
workflows of Congressional staff, Member Offices, and Committees.
    Specifically, this software-based platform could provide 
Congressional staff with a financial performance and accountability 
dashboard that organizes spending by budget function, maps the impact 
of spending to Congressional districts and Committee jurisdictions, 
includes information on known data quality issues and limitations, and 
links other Federal open data sets for performance analysis. 
Congressional staff could also track specific agency accounts and 
programs through a tailored dashboard equipped with custom alerts, 
report building functionality, and interactive data visualizations.
    The implementation of the DATA Act's USAspending.gov represents a 
significant Congressional investment. The Congressional Budget Office 
originally estimated $300 million in associated implementation costs 
from fiscal year 2014-2018 (though we estimate actual implementation 
costs were ultimately much lower).\12\ For instance, more than $30.7 
million in dedicated funds were appropriated in fiscal year 2016.\13\
---------------------------------------------------------------------------
    \12\ S. Rep. No. 113-139 (2014). https://www.congress.gov/113/crpt/
srpt139/CRPT-113srpt139.pdf. See page 12.
    \13\ DATA Act Implementation Check-In, 114th Cong. (2016) 
(testimony of David Mader Controller, Office of Management and Budget). 
https://oversight.house.gov/wp-content/uploads/2016/04/2016-04-19-
Mader-OMB-Testimony.pdf. See Appendix B for a summary chart of 
Congressional appropriations for DATA Act implementation.
---------------------------------------------------------------------------
    It is imperative that Congress now also invest in itself with the 
necessary systems to leverage this new national information resource to 
fulfill its Constitutionally mandated Article 1 duties.
          conclusion: data-driven decision making for congress
    Congress needs to utilize this information resource to enhance the 
way it conducts the day-to-day work of executive branch oversight, 
budget formation, appropriation funding, programmatic authorizations, 
and constituent relations work. Otherwise the country risks the DATA 
Act's legal mandate becoming yet another Federal compliance exercise.
    By fully leveraging USAspending.gov's consistent and reliable 
spending data with a CRS built system, Congress will enhance its 
ability to fully understand how Federal taxpayer funds are ultimately 
used. And in turn, make better, data-driven decisions on behalf of the 
public.

    [This statement was submitted by Christian A. Hoehner, Director of 
Policy.]
                                 ______
                                 
               Prepared Statement of Democracy Fund Voice
April 13, 2018

 
 
 
The Honorable Kevin Yoder                   The Honorable Tim Ryan
Chairman                                    Ranking Member
House Appropriations Subcommittee on the    House Appropriations
 Legislative Branch                          Subcommittee on the
Washington, D.C. 20515                       Legislative Branch
                                            Washington, D.C. 20515
 
The Honorable Steve Daines                  The Honorable Chris Murphy
Chairman                                    Ranking Member
Senate Appropriations Subcommittee on the   Senate Appropriations
 Legislative Branch                          Subcommittee on the
Washington, D.C. 20510                       Legislative Branch
                                            Washington, D.C. 20510
 


Dear Chairman Yoder, Chairman Daines, Ranking Member Ryan, and Ranking 
Member Murphy:

    Democracy Fund Voice is a nonpartisan organization established by 
eBay founder Pierre Omidyar to help America build a stronger, healthier 
democracy. Effective governance in Washington and our State capitals is 
absolutely critical to this mission, and we regularly support efforts 
to ensure that elected leaders have the tools and resources they need 
to best deliberate, negotiate, and serve the American people.
    We urge you, as the Chairs and Ranking Members of the House and 
Senate Appropriations Subcommittees on the Legislative Branch, to 
include adequate resources in the fiscal year 2019 Legislative Branch 
appropriations bill to allow Congress to fulfill its critical 
constitutional responsibilities.
    A healthy democracy requires a Legislative Branch that is able to 
carry out its responsibilities and earn the trust of the American 
people. By the powers granted to it through Article One of the 
Constitution, the United States Congress is the world's most powerful 
legislature. Yet in recent years, ``Congress is broken'' has become a 
too-common refrain from voices inside and outside of the institution. 
We believe this is, at least in part, because Members of Congress have 
forfeited a significant amount of their power through chronic 
underfunding of the resources and people required for the institution 
to represent the American people effectively. When Congress has 
inadequate internal resources, it relies more on outside special 
interests-and this dynamic further reduces the public's trust in its 
decisions.
    As you surely know, the Legislative Branch spends only one tenth of 
1 percent of all Federal discretionary spending on itself. 
Appropriations for the legislative functions of government have 
remained flat for more than a decade.\1\ This pattern is unsustainable 
if Congress wishes to cease delegating legislative functions to 
bureaucratic rulemaking in the Executive Branch. To adequately oversee 
the 180 agencies of the Executive Branch and restore its status as the 
first branch of government, Congress must dedicate more resources to 
itself. This includes office budgets, staff salaries, legislative 
support agencies such as the Congressional Research Service (CRS) and 
Congressional Budget Office (CBO), technology intended to make 
constituent service more efficient and effective, and the cybersecurity 
of networks within the Legislative Branch.
---------------------------------------------------------------------------
    \1\ ``Vital Statistics on Congress,'' Table 5-10, Brookings 
Institution, September 7, 2017, accessed April 9, 2018. Available at: 
www.brookings.edu/multi-chapter-report/vital-statistics-on-
congress/.
---------------------------------------------------------------------------
    The effects of stagnant funding levels for congressional offices 
have been particularly acute on the staff who power the institution. 
House Member and committee offices have hundreds fewer staff at their 
disposal to develop legislation and serve constituent needs than they 
had in the 1990s. Senate committee employment, meanwhile, has declined 
roughly 10 percent from 2005 to 2015.\2\ Yet with each Member of the 
House on average representing about 200,000 more constituents and each 
Senator on average representing 1.6 million more constituents than they 
did 30 years ago, staff have greater demands than ever before.\3\ CRS 
also has found that the average salaries for staff have declined by 
thousands of dollars in recent decades,\4\ pushing many out the door 
and reducing the average tenure of staff to just a few years.\5\
---------------------------------------------------------------------------
    \2\ ``Vital Statistics on Congress,'' Table 5-1, Brookings 
Institution, September 7, 2017, accessed April 9, 2018. Available at: 
www.brookings.edu/multi-chapter-report/vital-statistics-on-
congress/.
    \3\ Curtlyn Kramer, ``Vital Stats: Congress Has a Staffing Problem, 
Too,'' Brookings Institution, May 24, 2017, accessed April 9, 2018. 
Available at: www.brookings.edu/blog/fixgov/2017/05/24/vital-stats-
congress-has-a-staffing-problem-too/.
    \4\ Molly Reynolds, ``The Decline in Congressional Capacity,'' 
Brookings Institution, February 23, 2018 (citing multiple CRS reports).
    \5\ Eric R. Petersen and Sarah Eckman, ``Staff Tenure in Selected 
Positions in Senate Committees, 2006-2016,'' Congressional Research 
Service, November 9, 2016, accessed April 12, 2018. Available at: 
https://fas.org/sgp/crs/misc/R44685.pdf.
---------------------------------------------------------------------------
    Many observers have suggested that Congress' struggle to hire and 
retain staff may be directly undermining its ability to fulfill its 
promised legislative agenda.\6\ One study of congressional employment 
data from the 108th to 113th Congress found that ``Members with more 
experienced staff produce more bills and more important legislation, 
and see their legislation progress further in the policymaking 
process.'' \7\ Yet according to a recent Congressional Management 
Foundation survey, only 11 percent of staff feel ``very satisfied'' 
that their chamber has the adequate staff capacity, research 
capability, and infrastructure to perform its role in democracy.\8\
---------------------------------------------------------------------------
    \6\ Joe Williams, ``Staff Departures Undermine GOP Legislative 
Agenda,'' Roll Call, June 19, 2017, accessed April 9, 2018. Available 
at: www.rollcall.com/news/policy/staff-departures-
undermine-gop-legislative-agenda.
    \7\ Joshua M. McCrain, 2017, ``Congressional Staff and Effective 
Legislating in the House of Representatives,'' Conference Paper, Annual 
Meetings of the Southern Political Science Association, 2018, New 
Orleans, LA. Available at: http://joshuamccrain.com/
McCrain_Staff_Paper.pdf.
    \8\ Kathy Goldschmidt, ``State of the Congress: Staff Perspectives 
on Institutional Capacity in the House and Senate,'' Congressional 
Management Foundation, August 8, 2017, accessed April 9, 2018. 
Available at: http://www.congressfoundation.org/projects/resilient-
democracy-coalition/state-of-the-congress/.
---------------------------------------------------------------------------
    Other effects of inadequate funding also are well documented. As a 
result of deep cuts over the years, today the House of Representatives 
holds nearly 50 percent fewer hearings than it did in 1995.\9\ 
Legislative support agencies have faced significant staff decreases in 
the past 35 years, with CRS operating at 72 percent of the staff 
capacity it had in the late 1970s and the Government Accountability 
Office (GAO) even lower, at 56 percent.\10\
---------------------------------------------------------------------------
    \9\ Kevin R. Kosar, ``Restoring Congress as the First Branch,'' R 
Street Policy Study No. 50, 2016, accessed April 9, 2018. Available at: 
www.rstreet.org/wp-content/uploads/2016/01/RSTREET50.pdf.
    \10\ Curtlyn Kramer, ``Vital Stats: Congress Has a Staffing 
Problem, Too,'' Brookings Institution, May 24, 2017, accessed April 9, 
2018. Available at: www.brookings.edu/blog/fixgov/2017/05/24/vital-
stats-congress-has-a-staffing-problem-too/.
---------------------------------------------------------------------------
    As its resources are diminished, Congress starves itself of the 
diversity,\11\ experience, and expertise so vital to successful 
constituent representation and policy formation. With less internal 
capacity to master complex issues and formulate legislative proposals, 
congressional staff more often turn to lobbyists (often former staff 
who have left the Hill for more lucrative positions) outside of the 
institution for help.\12\ Declining office capacity, therefore, 
increases Congress' reliance on outside interests in the policy 
formation process. As a result, the Congress' capacity to function as a 
deliberative body and to represent the will of ordinary citizens is 
further weakened-and this intensifies the cycle of public 
dissatisfaction with congressional performance.
---------------------------------------------------------------------------
    \11\ ``Racial Diversity Among Top Senate Staff,'' Joint Center for 
Political and Economic Studies, December 15, 2015, accessed April 9, 
2018. Available at: jointcenter.org/research/racial-diversity-among-
top-senate-staff.
    \12\ Lee Drutman and Steven Teles, ``Why Congress Relies on 
Lobbyists Instead of Thinking for Itself,'' The Atlantic, March 10, 
2015, accessed April 9, 2018. Available at: www.theatlantic.com/
politics/archive/2015/03/when-congress-cant-think-for-itself-it-turns-
to-lobbyists/387295/.
---------------------------------------------------------------------------
    Lastly, Congress is operating with decades-old technology. This not 
only hampers its ability to function effectively and be responsive to 
constituents; it also impedes achievement of greater efficiencies by 
the staff who remain. Perhaps most importantly, Congress needs 
essential 21st century cybersecurity measures. At a time when data 
breaches are in the headlines daily, Congress should take steps to 
ensure that its own information, as well as the personal information of 
constituents on whose behalf congressional offices work, is protected.
    Democracy Fund Voice established its Governance Program to be an 
ally of Congress. Democracy Fund Voice staff collectively have decades 
of experience on both sides of the aisle working in Congress. We 
believe deeply in the primary role of the Legislative Branch in our 
Federal system. A Congress that lacks the ability to make informed and 
independent policy decisions and to function as a check and balance, as 
the framers of the Constitution intended, undermines the public's 
trust. We believe more resources are necessary across the Legislative 
Branch to rebuild public trust in the institution and, ultimately, in 
our democracy.
    At Democracy Fund Voice and our sister organization, Democracy 
Fund, we support dedicated and resourceful nonprofits that train 
congressional staff in legislative procedure, educate Members and staff 
on complex policy issues, strengthen committee staff's ability to 
perform rigorous oversight of Executive Branch agencies, and develop 
solutions to office communications and technology challenges. We are 
proud to support this work, but it can only go so far in improving the 
institution from the outside. Ultimately, Congress must provide itself 
with the resources it needs.
    We believe leaders in Washington can rise above their differences 
and find common ground to address the greatest challenges facing our 
country. We look forward to supporting your efforts to ensure that 
Congress has the resources it needs to do so.

Sincerely,

Joe Goldman, President
Democracy Fund Voice
                                 ______
                                 
       Prepared Statement of the National Security Counselors \1\
---------------------------------------------------------------------------
    \1\ Joined by the Government Accountability Project and the Project 
on Government Oversight.
---------------------------------------------------------------------------
    Chairman Daines, Ranking Member Murphy, and Members of the 
Legislative Branch Appropriations subcommittee, thank you for the 
opportunity to speak with you today.
    The Government Accountability Office plays a critical role in 
Congressional oversight of the Executive Branch. Unfortunately, that 
role may be stymied when it comes to the Intelligence Community 
(``IC''). Despite the fact that, by statute, GAO already has the 
purview to conduct oversight of all Federal agencies \2\ and has since 
its creation in 1921,\3\ the IC has insisted that it is not subject to 
such audits since its inception. This effectively deprives Congress of 
one of the most effective tools in its arsenal, especially at a time 
when the activities of the IC present some of the most pressing needs 
for robust oversight in the Executive Branch. I respectfully recommend 
that Congress take steps to conclusively validate GAO's jurisdiction in 
such matters.
---------------------------------------------------------------------------
    \2\ See 31 U.S.C. Sec. Sec. 712, 717, 3523(a) (GAO has authority to 
investigate each ``department, agency, or instrumentality of the United 
States Government.'')
    \3\ Budget and Accounting Act, Public Law 67-13, 42 Stat. 26, June 
10, 1921 (``All departments and establishments shall furnish to the 
Comptroller General such information regarding the powers, duties, 
activities, organization, financial transactions, and methods of 
business of their respective offices as he may from time to time 
require of them.'').
---------------------------------------------------------------------------
    In response to the IC's recalcitrance, some Members of Congress 
have periodically attempted to resolve the matter over the past few 
decades. For instance, then-Congressman Leon Panetta introduced a bill 
in 1987 called the CIA Accountability Act to officially clarify GAO's 
authority vis-a-vis the IC.\4\ Unfortunately, it was not enacted. In 
1988, GAO attempted to conduct an investigation ``[i]n order to 
evaluate whether 'information about illegal activities by high level 
officials of other nations may not be adequately considered in U.S. 
foreign policy decisions,' '' leading the National Security Council to 
request an opinion from the Department of Justice Office of Legal 
Counsel which has been cited ever since:
---------------------------------------------------------------------------
    \4\ H.R. 3603, available at https://fas.org/irp/eprint/panetta-
1987.pdf.

          We therefore conclude based on the nature of the GAO request 
        that the subject of the GAO investigation is the Executive's 
        discharge of its constitutional foreign policy 
        responsibilities, not its statutory responsibilities. The 
        subject is thus not ``a program or activity the Government 
        carries out under existing law,'' and it is beyond GAO's 
---------------------------------------------------------------------------
        authority under 31 U.S.C. Sec. 717(b). . . . 

          In addition to the infirmity in GAO's statutory authority to 
        pursue this investigation, we believe that GAO is specifically 
        precluded by statute from access to intelligence information. 
        In establishing by law the oversight relationship between the 
        intelligence committees and the executive branch, Congress 
        indicated that such oversight would be the exclusive means for 
        Congress to gain access to confidential intelligence 
        information in the possession of the executive branch.

          This intelligence oversight system has been codified at 50 
        U.S.C. Sec. 413. That section sets forth requirements for the 
        Director of Central Intelligence, the heads of all other 
        Federal agencies involved in intelligence activities, and the 
        President to inform the Congress through the intelligence 
        committees (and in some circumstances the Speaker and minority 
        leader of the House of Representatives and the majority and 
        minority leaders of the Senate) of intelligence activities.\5\
---------------------------------------------------------------------------
    \5\ Investigative Authority of the General Accounting Office, 12 
Op. Off. Legal Counsel 171 (1988).

    Over two decades later, this fight was still underway. When an 
amendment to the fiscal year 2010 Intelligence Authorization Act sought 
to reaffirm GAO authority, it prompted a veto threat in the form of a 
letter from Director of the Office of Management and Budget Peter 
Orszag,\6\ which Acting Comptroller General Gene Dodaro thoroughly 
refuted, demonstrating that ``[n]either the language of section 413 nor 
its legislative history provides support for this position'' and that 
the IC's resistance ``has greatly impeded GAO's work for the 
intelligence committees and also jeopardizes some of GAO's work for 
other committees of jurisdiction, including Armed Services, 
Appropriations, Judiciary, and Foreign Relations, among others.'' \7\
---------------------------------------------------------------------------
    \6\ Letter from Orszag to Feinstein of 3/15/10, available at 
https://fas.org/irp/news/2010/03/omb031610.pdf.
    \7\ Letter from Dodaro to Feinstein of 3/18/10, available at http:/
/www.pogoarchives.org/m/co/dodaro-letter-to-intel-committees-
20100318.pdf. Mr. Dodaro concluded that reaffirming GAO's authority in 
this area ``would prove beneficial both to the conduct of oversight by 
the intelligence committees and to the efficiency and effectiveness of 
IC operations.''
---------------------------------------------------------------------------
    Despite Mr. Dodaro's testimony, the enacted law took a middle-of-
the-road approach, stating that clarification was necessary but 
deferring to the Executive for that clarification, instructing the 
Director of National Intelligence (``DNI'') to ``issue a written 
directive governing the access of the Comptroller General to 
information in the possession of an element of the intelligence 
community.'' \8\ The DNI, for his part, issued Intelligence Community 
Directive 114 the following year, which reluctantly admitted that GAO 
had some authority to investigate the IC, but adopted a severely 
restrictive interpretation of the scope of that authority:
---------------------------------------------------------------------------
    \8\ 50 U.S.C. Sec. 3308.

          Information that falls within the purview of the 
        congressional intelligence oversight committees generally shall 
        not be made available to GAO to support a GAO audit or review 
        of core national intelligence capabilities and activities, 
        which include intelligence collection operations, intelligence 
        analyses and analytical techniques, counterintelligence 
        operations, and intelligence funding. IC elements may on a 
        case-by-case basis provide information in response to any GAO 
        requests not related to GAO audits or reviews of core national 
        intelligence capabilities and activities.\9\
---------------------------------------------------------------------------
    \9\ ICD 114(D)(4)(b), available at https://www.dni.gov/files/
documents/ICD/ICD_114.pdf.

    In other words, GAO can investigate anything involving the IC that 
the intelligence oversight committees cannot, which amounts to 
basically nothing. Moreover, this is not an academic dispute: in 
response to a question about this matter from Chairman Yoder of the 
House Legislative Branch Appropriations Subcommittee, Mr. Dodaro 
explained just this week that this remains an ongoing controversy, 
---------------------------------------------------------------------------
although the situation is minimally better than it was before 2010:

          Chairman Yoder. Do you need additional support from Congress 
        or direction to the intel agencies to make sure they're aware 
        that this is an authority you have?

          Mr. Dodaro. Yes, that would be helpful.\10\
---------------------------------------------------------------------------
    \10\ Available at https://www.youtube.com/watch?v=peKIttDzU4o 
(testifying that GAO has been able to investigate peripheral matters in 
the IC such as ``a facilities area'' and contract management in the 
last few years).

    GAO possesses significantly more resources and institutional 
expertise in certain kinds of Executive Branch investigations than even 
the most robust committee staff, and there is frankly no reason for 
this arbitrary restriction on its authority. Congress gave the 
Executive Branch a chance to establish reasonable limitations which 
balanced the Executive's legitimate interests with one of the most 
important functions of Congress-effective oversight. Instead of 
crafting a reasonable policy, the DNI memorialized the hard-line 
position the IC had taken from the very beginning.
    I recommend this committee include language to remove any doubt 
concerning GAO's audit power over the IC by advancing a measure that 
restates Section 335 of the fiscal year 2010 Intelligence Authorization 
Act, as engrossed by the House of Representatives in February 2010.\11\
---------------------------------------------------------------------------
    \11\ Available at https://www.gpo.gov/fdsys/pkg/BILLS-111hr2701eh/
pdf/BILLS-111hr2701eh.pdf.
---------------------------------------------------------------------------
    Not only would taking such a measure resolve a longstanding 
problem, but it would be revenue neutral, since it would not require 
GAO to take on any more responsibilities than it already has; it would 
only open the universe of matters it may investigate. When one 
considers the fact that the number of GAO employees with Top Secret/
Sensitive Compartmented Information (``TS/SCI'') clearances is higher 
than the combined number of staffers employed by both intelligence 
oversight committees, it is clear that these artificial restrictions on 
GAO's authority are causing Congress to expend more financial and 
manpower resources to accomplish less oversight over a significant 
portion of the Executive Branch. It is time for Congress to assert its 
prerogatives to protect its oversight capabilities over all agencies.

    [This statement was submitted by Kel McClanahan, Executive 
Director.]
                                 ______
                                 
                Prepared Statement of R Street Institute
    Thank you Chairman Daines, Ranking Member Murphy, and Members of 
the subcommittee for accepting testimony from outside witnesses.
    I am the Vice President of Policy at the R Street Institute, and I 
spent 11 rewarding years as an analyst and acting research manager at 
the Congressional Research Service (CRS).
    Three years, I and members of a diverse coalition \1\--including 
former CRS employees--asked the subcommittee to help complete something 
begun more than 20 years ago: equalizing public access to Congressional 
Research Service reports.\2\
---------------------------------------------------------------------------
    \1\ 41 Organizations Call for Public Access to CRS Reports, Address 
Concerns Raised by CRS, August 2015, https://www.ccagw.org/legislative-
affairs/letters-officials/organizations-call-public-access-crs-reports; 
and CRS Employees Letter Calling For Public Access To CRS Reports, 
October 22, 2015. https://archive.org/details/
CRSEmployeesLetterCallingForPublicAccessToCRS
Reports10222015.
    \2\ Steven Aftergood, ``Liberating the Congressional Research 
Service,'' Secrecy and Government Bulletin, March 1997. https://
fas.org/sgp/bulletin/sec65.html.
---------------------------------------------------------------------------
    I argued then that it was good for the public, as they pay more 
than $100 million per year for CRS to serve Congress, yet have far less 
access to the reports than Beltway insiders. The public also would 
benefit from CRS, I contended, because the reports are objective--a 
rare thing in this era of ``alternate facts'' and claims of fake news. 
I also said that you would do CRS employees a favor by making the 
reports publicly accessible. It has long been a hassle for staff to get 
calls and emails from academics and media asking for a copy of a report 
and being forced to say ``No.'' As such, to remove CRS employees as 
middlemen would free more of their time to conduct deep research for 
Congress.
    Last year, language in a Senate bill and a House report to expand 
public access to CRS reports. Then this spring you finished the job--
you enacted law that struck down the 1954 appropriations rider that had 
created inequitable access.\3\
---------------------------------------------------------------------------
    \3\ Kevin Kosar, ``Where taxpayers pay ($100 million a year) but 
interest groups benefit,'' The Washington Post, Nov. 10, 2015. https://
www.washingtonpost.com/news/Federal-eye/wp/2015/11/10/where-taxpayers-
pay-100-million-a-year-but-interest-groups-benefit/
?utm_term=.965e4c523c42.

---------------------------------------------------------------------------
    Thank you.

    Now comes the challenge of implementation. The law, signed on March 
23, tasks CRS to provide the Library with the reports within 90 days 
(June 21), and for the Library to certify to you that CRS has done so. 
That is a good oversight provision.
    However, I suggest the subcommittee consider querying the Library 
and CRS every 30 days--or even every 2 weeks--to oversee their progress 
prior to June 21. As you know all too well, CRS leadership long 
resisted the public release of the reports-irrespective of the fact 
that tens of thousands of copies already were floating around out 
there. For this reason, the subcommittee cannot presume prompt 
compliance with the law it wrote. And I would urge the subcommittee to 
post on its site the LoC's and CRS' responses to your oversight 
queries. Doing so will allow the many, many groups who advocated for 
this policy to help you keep an eye on implementation.
    And since we are on the subject of CRS, I am delighted that it 
appears the agency's funding will be increased, which will help expand 
its staff count. (It has atrophied greatly in recent decades.)
    But please allow me to suggest the subcommittee take a closer look 
at the state of management there. By all accounts, there are problems. 
Let me just mention two points:

    First, many employees are not happy. A few years ago, CRS 
commissioned a survey of its employees and the results were bad. 
Interestingly enough, I am told agency management shared with CRS staff 
only selected, less bad portions of those survey results. I do not know 
if the agency ever shared the original survey results with you--if not, 
you may wish to see them. Symptomatic of the situation is that recently 
a CRS attorney wrote to the Librarian of Congress re: the pressures 
analysts were feeling to adjust their analysis and discussions with 
Congress and its staff to avoid offending anyone's political 
sensibilities. That's a problem; because Congress pays CRS to be 
objective even when the facts are upsetting. This same attorney, I 
should add, was sanctioned by the agency because she said something to 
congressional staff that CRS management feared was too conclusive about 
what science showed about climate change.\4\ Another American Law 
Division attorney's legal analysis was bottled up by management because 
it felt its conclusions would upset some members of Congress. She later 
was suspended from duty for cursing at her supervisor.
---------------------------------------------------------------------------
    \4\ Kevin Kosar, ``The struggle between objectivity vs. neutrality 
continues at the Congressional Research Service, R Street Institute, 
Feb. 13, 2018. http://www.rstreet.org/2018/02/13/the-
struggle-between-objectivity-vs-neutrality-continues-at-the-
congressional-research-service.

    Second, the agency also is hemorrhaging talent. CRS, when I checked 
two weeks ago, had 14 open positions. Staff are quitting or retiring in 
frustration and exasperation. In recent years, the former deputy 
director of CRS left, as did the long-time head of finance, the leader 
of the government and finance division, the head of its human resources 
unit, and various analysts and attorneys. CRS's annual reports to 
Congress in 2016 and 2017 saw the agency's retention rate sliding. 
Interestingly, CRS did not report its staff retention data in its 2017 
report. One wonders why.
    The turnover at CRS and the loss of good employees is bad for the 
agency, bad for Congress and also expensive. It costs a lot to onboard 
and train a new employee. That people are choosing to leave CRS--a 
place where one can rise to the GS-15 pay level and make $164,000 a 
year--is not a healthy sign. One of the reasons I myself departed in 
2014, was that I had little confidence that top leadership had a vision 
for the agency in the 21st century.
    I do not know if CRS's oversight committee, the Senate Committee on 
Rules and Administration, is examining these issues. Regardless, I 
think you, the appropriators, might find it informative to meet with 
the leadership of CREA, and also to interview the various employees who 
have departed the agency to hear what they have to say. CRS management, 
who presumably will tell you everything is wonderful, can supply you 
with the names of all departed staff.
    Thank you for your time, and I would be happy to answer any 
questions you may have. I can be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4dfdfdbc7d5c6f4c6c7c0c6d1d1c09adbc6d39a">[email&#160;protected]</a>

    [This statement was submitted by Kevin R. Kosar, Vice President of 
Policy.]
                                 ______
                                 
          Prepared Statement of the Stanford Cyber Initiative
Dear Chairman Yoder, Ranking Member Ryan and Members of the Committee:

    Thank you for considering my testimony. The Stanford Cyber 
Initiative is a research and education initiative dedicated to 
expanding the field of cybersecurity and cyber policy to include 
multidisciplinary studies and researchers.
    As cybersecurity policy experts on the west coast, our 
opportunities to bring research insights to the Hill primarily involve 
participating in committees, such as those organized by the National 
Academies of Science, Engineering, and Medicine, and in speaking with 
our Californian representatives and legislators. As seen during Mark 
Zuckerberg's recent Congressional testimony, and deliberations over 
encryption technologies, the geographical centralization of technology 
companies leads to technological expertise in the form of staffers and 
advisors being disproportionately allocated to a handful of 
representatives at the expense of the support of others.
    Conducting a study of the feasibility of re-opening the Office of 
Technology Assessment (OTA) would be a useful and welcome step toward 
expanding the expert knowledge available to all Congresspeople on 
technology policy issues. Because technology policy is not a local 
issue, but affects constituents nationwide, is it in our interest as a 
nation to aggregate and indiscriminately provide the best technological 
expertise available.

    Thank you,

    [This statement was submitted by Allison Berke, Executive 
Director.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
